21-5516 QIC!

No.

$

Supreme Court, U.S.
FILED

IN THE

AUG 1 2 2021

SUPREME COURT OF THE UNITED QtatpLoffice of the a me

ptMvtj
'

in

— PETITIONER

(Your Name)

Si/ags esuir ofe-

VnL~tItff

RESPONDENT(S)

ON PETITION FOR A WRIT OF CERTIORARI TO

(DUfl/f

Id&CQiyJ tfjSUtftf

(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

'filmy) fewfill 'J/L
/“i (WW £*V
P.o ■ 6d)c
(Address)

(City, State, Zip Code)

m

(Phone Number)

RECEIVED
AU6 2 6 2021

IN THE

a

ilPillML

SUPREME COURT OF THE UNITED STATES
ni

IN re: Freddy Perkins, Jr,
Petitioner

ON PETITION FOR WRIT OF MANDAMUS
Seventh Circuit Court OF APPEALS
APPEAL # 17-3047

Freddy Perkins, Jr.
Federal Prison Camp (Oxford)

I RECEivgg-

P.O. Box 1085
:
Oxford Wisconsin 53952

JUN 1 ? 2021

Question Presented
The issue here goes beyond a miscarriage of justice Its lower court refusal to administer ju
stice for over
40 months warrants this Honorable Supreme Court to compel the lower court to
rule on matters before
them.
1. Whether Mathis applies retroactive to Petitioner Perkin's claim of 'Actual Innocent" under
841 (b)(1)(a) & 846, 280 grams or more Cocaine Base and 851 enhancement.
LIST OF PARTIES
Seventh Circuit Court of APPEALS, certain personnel and judges

as to their nonjudicial actionable acts.

TABLE OF CONTENTS
LIST OF PARTIES.........
....2
TABLE OF CONTENTS..
......2
OPINION..............
............. N/A
JURISDICTION............
............ 3
CONTITUTTIONAL AND STATUTORY PRIVISIONS INVOLVED
....3
STAMENTOF THE CASE................................
..3
REASON FOR GRANTING WRIT...................
5

conclusion:.....................
............ S
INDEX TO APPENDICES....
.... N/A
PROOF OF SERVICE........
... ..*6
IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR A WRIT OF MANDAMUS
Petitioner respectfully prays for a Writ of Mandamus as follows.

Page 2

JURISDICTION
Articles III of Constitution, 28 U.S.C. 12541651, Sup. Ct Rule 20.
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
l.Vth, deprive "any person of life, liberty, or property without due process of law"

RELIEF SOUGHT
1.

Requesting This Honorable Supreme Court of The United States to compel the
Seventh Circuit Court of Appeals to render and order an opinion for Appeal

#17-3047.

FACTS/STATEMENT OF THE CASE
Pro Se Freddy Perkins Jr. has been waiting 40 months and counting and The Seventh Circuit
of Appeals has yet to render an order and opinion on a meritorious petition for "Writ Of
Habeas Corpus under 28 U.S.C.2241.
1. On October 15,2012 Freddy Perkins Jr. was found guilty of conspiracy to distribute and
possess with the intent to distribute 280 grams of Crack Cocaine Petitioner Perkins Jr. was
sentence to 240 months of imprisonment
2. On January 16,2014 The Seventh Circuit Affirmed his Conviction^;<xMveSi//>?
3. On September 20,201^ Freddy Perkins Jr. filed his motion of Actual Innocence under
28 U.S.C. 2241 Writ of Habeas Corpus Petition in the United States District Court
4. On September 25, 201?JThe United States District Court denied Freddy Perkins Jr.
Petition for Actual Innocence.
5. On November 14, 2017 Freddy Perkins Jr. filed his motion for Appeal of the lower
Page 3

fitv

Court's denial of his 28 U.S.C 2241 Writ of Habeas Corpus Petition of his claim of
Actual Innocence to United States Court Appeals for the Seventh Circuit,
6. On August 29, 2018 Appeal Louis William of the Western District of Wisconsin
filed for an Order of Non- Involvement on Appeal due to Lack of service.
7. On August 30, 2018 an ordered was enter to remove the United States Attorney
from the docket in this Appeal due to non- service with process in the District
Court
8. On November 13, 2018 Appellant Freddy Perkins Jr. filed a "Notice of Motion"
9. On November 1, 2019 Appellant Freddy Perkins Jr filed "Motion to Expedite"
10. On April 30,2020, Appellant Freddy Perkins Jr. filed pro se "Citation of Additional
Authority" per Circuit Rule 28(e).
11. On July 6, 2020 Appellant Freddy Perkins Jr. filed a copy "Emergency Writ of"
Mandamus sent to the United States Supreme Court in the United States Court
of Appeals for the Seventh Circuit. However, the United States Supreme Court
clerk stated that motion was never received.
12. On September 17, 2020 Appellant Freddy Perkins Jr. pro se filed a "Supplemental Brief’
in support of his actual innocence.
13. On November 23, 2020 Appellant Freddy Perkins Jr. filed a motion of "STATUS
14. On November 24, 2020 an ordered was enter stating" A review of the docket indicates that this
appeal is proceeding to a determination of whether this court should summarily affirm the District
Courts Judgement on the basis of the September 2020 supplemental and earlier filed materials."
15. On February 4, 2021 Appellant Freddy Perkins pro se filed for "Status and Disposition."

Page 4

THE REASON WHY WRIT SHOULD BE ISSUED.
Appellant Freddy Perkins Jr constitutional rights were violated by a wrongful conviction
under 841 (b)(1)(a) & 846 280 Grams or more Cocaine Base. Where the government presented
insufficient evidence at trial to support such a charge also, the Seventh Circuit failed to
address the sufficiency of the evidence issue on direct appeal. The failure to address this issue
by the Seventh Circuit Court of Appeals was dereliction of duty,bbssT

This resulted

in a grave miscarriage of Justice. To further compound the wrongful conviction under 841(b)
(1) (A) & 846 280 grams or more Cocaine Base, Appellant Freddy Perkins was erroneously
enhanced under U.S.C. 851 for a prior felony drug conviction that no longer qualified under
the categorical approach in Mathis V. United States, 136 S. ct. 2243 (2016) as prior drug offense
that can be used to enhance a sentence under U.S.C. 851.
The Seventh Circuit has rendered Orders and Opinions which further support Appellant
Freddy Perkins Jr. assertions. See United States V. Elder 900 F. 3d 491 (7th Cir 2019) The
Seventh Circuit adopts the Categorical Approach Application to U.S.C. 841 (b) (1) (a) and 802 (44).
In Najera- Rodriquez V. Barr 926. F 3d 343(7th Cir. 2019) (Holding that Illinois Statue 720 ILCS
570/402 is not divisible). United States V, Ruth 966 f. 3d. 642(7th Cir. July 2020) (Holding that
Illinois drug conviction for 720 ILCS 570/401"No Longer qualifies as a Felony Drug Offense").

CONCLUSION
Appellant Freddy Perkins Jr. meets all prongs set forth in U.S. V. Davenport's requirements,
See IN. RE. Davenport, 147 F. 3d 605 (7th Cir. 998) to proceed in a Habeas Corpus U S. C. 2241.
Therefore, a Writ Of Mandamus should be granted as Appellant Perkins Jr. is being held
illegally against the Laws of The United States of America and The United States
Constitution.
Page 5

